No. 19-1131
IN THE

Supreme Court of the United States
ACTAVIS LABORATORIES FL, INC.,
Petitioner,
v.
NALPROPION PHARMACEUTICALS, LLC,
Respondent.
On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Federal Circuit
CERTIFICATE OF SERVICE
I, William M. Jay, counsel of record and a member of the Bar of this Court,
certify pursuant to Supreme Court Rules 29.3 and 29.5 (as modified by the Court’s
Order of April 15, 2020) that I have, this 4th day of May 2020, served the Reply
Brief for Petitioner upon each party separately represented in this proceeding by
causing an electronic copy of the same to be delivered to counsel of record at the email address listed below:
Dominick A. Conde
dconde@venable.com
Pursuant to the Court’s April 15 Order, I certify that all parties have agreed
to accept such electronic service in lieu of service of paper copies. I further certify
that all persons required to be served have been served.

In addition, pursuant to Supreme Court Rule 29.7, I certify that I have
caused electronic copies of all documents to be filed with the Clerk.

May 4, 2020

____________________________
William M. Jay
GOODWIN PROCTER LLP
1900 N Street, N.W.
Washington, DC 20036
wjay@goodwinlaw.com
(202) 346-4000
Counsel for Petitioner

2

